                                          --




                      CLOSEOUT FOR M92060024
     This case was brought to
1992 telephone call from Drs.



                                                          in their




not alleging intellectual theft.
     OIG1s inquiry revealed that the failure to cite was
inconsequential and that citation, though perhaps desirable, was
certainly not required. The article by the subjects has a somewhat
different intellectual focus from the work of the complainants.
While the work of the complainants and others may, in a general
way, have influenced the subjects1 perspective about the importance
of certain processes, citation in such matters is not mandatory and
failure to cite in such instances does not constitute misconduct in
science.
     OIG also concluded that there was no evidence of intellectual
theft. The arguments and data in the subjectsi paper are their own.
Neither the complainants' letter nor the response to the subjects'
article that the complainants submitted for publication claims
otherwise.
     The normal channels for scientific discourse and publication
provide adequate opportunities for the complainants to seek
recognition for their contributions. The subjects in this case had
no obligation to highlight the complainants1 work.
     OIG found no evidence of misconduct in science. This case is
closed and no furth6r action will be taken.




Staff Scientist, Oversight
Concurrence $




~ctingDeputy Assistant Inspector General,
Oversight
Assistant Inspector General for Oversight




pdilip L. sunshine
Deputy Inspector General


cc: Assistant Inspector General for Oversight
    Inspector General.
